                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Internal Control Lessons Learned
                     for Hurricane Sandy Disaster
                     Relief Appropriations Act Funds

                     Report No. 13-P-0351                    August 22, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Todd Goldman
                                                   Derek Mulvihill




Abbreviations

ARRA             American Recovery and Reinvestment Act of 2009
CWSRF            Clean Water State Revolving Fund
DRAA             Disaster Relief Appropriations Act
DWSRF            Drinking Water State Revolving Fund
EPA              U.S. Environmental Protection Agency
GAO              Government Accountability Office
OIG              Office of Inspector General
OMB              Office of Management and Budget
SRF              State Revolving Fund


Cover photo: 	   Hurricane Sandy was the biggest Atlantic storm in history, spanning an area
                 broader than Texas. (EPA image)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency
                        Office of Inspector General 	                                                     13-P-0351
                                                                                                     August 22, 2013


                        At a Glance

Why We Did This Review              Internal Control Lessons Learned for Hurricane 

On January 29, 2013, the            Sandy Disaster Relief Appropriations Act Funds

President signed the Disaster
Relief Appropriations Act,           What We Found
which provided $50.5 billion in
aid for Hurricane Sandy             The Office of Management and Budget provided guidance to federal agencies
disaster victims and their          supporting Sandy recovery on their submittal of internal control plans by March
communities. DRAA required          31, 2013. We reviewed 72 prior reports on ARRA and found that the following
federal agencies supporting         percent of reports addressed key OMB provisions specifically, addressed multiple
Sandy recovery to implement         provisions, or addressed no provisions:
internal controls to prevent
fraud, waste and abuse of                                                             11.11%
funds. The U.S. Environmental                                                                         31.94%
Protection Agency received                                                 20.83%
nearly $608 million, the bulk of
which was designated for the                                             4.17%
Clean Water and Drinking                                                  2.78%
Water State Revolving Funds.                                                                   29.17%
We sought to determine
whether the EPA has controls
in place for the award and
management of Sandy relief
funds based on lessons from             Source: OIG analysis.
past reports on the American
Recovery and Reinvestment           EPA has controls in place to manage Sandy relief funds as described in the
Act of 2009.                        agency’s internal control plan (dated March 28, 2013), such as conducting
                                    transaction testing on cash draws; performing semiannual administrative review
This report addresses the           of audits; and accelerating resolution of open audits. We identified additional
following EPA Goals or              controls for the agency to consider based on our prior report review:
Cross-Cutting Strategies:
                                     1. Strengthen oversight of sub-recipients and develop a checklist that states
  Protecting America’s                   can use to help ensure compliance with DRAA.
   waters.                           2. Work with states to incorporate inspections as part of routine oversight.
                                     3. Utilize information in recipient monitoring databases to regularly provide
  Cleaning up communities
                                          management reports on project progress and status of corrective actions.
   and advancing sustainable
                                     4. Include specific actions to identify states/projects at risk of not meeting
   development.
                                          deadlines and establish procedures to assist states with delayed projects.
                                     5. 	 Update detection and reporting procedures to identify improper grant 

                                          payments.


For further information, contact
                                    This report makes no recommendations. We encourage the agency to consider
our Office of Congressional and     lessons we identified as the EPA moves forward with Sandy recovery activities.
Public Affairs at (202) 566-2391.
                                     Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2013/       The EPA showed foresight to seek a waiver from OMB on expending funds within
20130822-13-P-0351.pdf              24 months given the long-term nature of SRF construction projects. The EPA
                                    also has plans in place to undertake many actions to address our suggestions.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                      THE INSPECTOR GENERAL




                                             August 22, 2013

MEMORANDUM

SUBJECT:	 Internal Control Lessons Learned for Hurricane Sandy Disaster Relief
          Appropriations Act Funds
          Report No. 13-P-0351

FROM:	         Arthur A. Elkins Jr.

TO:	           Stefan Silzer, Director
               Office of Financial Management, Office of the Chief Financial Officer

This is our report on the subject audit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains observations and suggestions identified by
the OIG. This report represents the opinion of the OIG and does not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in accordance
with established audit resolution procedures.

Action Required

You are not required to provide any further response to this report. We will post this report to our
website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rich Eyermann,
acting assistant inspector general for audit, at (202) 566-0565 or Eyermann.Richard@epa.gov;
or Patrick Gilbride, director for risk and program performance audits, at (303) 312-6969 or
Gilbride.Patrick@epa.gov.
Reason for Review
            On January 29, 2013, the President signed into law the Disaster Relief
            Appropriations Act, which provided $50.5 billion in aid for Hurricane Sandy
            disaster victims and their communities. Because relief funding of this magnitude
            often carries additional risk, federal departments and agencies must ensure that the
            funds appropriated under the DRAA are used for their intended purposes. The EPA
            received nearly $608 million under the DRAA (post-sequester amount of $577
            million). To provide assistance to the EPA, we conducted a review of past Office of
            Inspector General and Government Accountability Office reports on the American
            Recovery and Reinvestment Act of 2009 to compile a list of lessons learned for the
            agency’s Sandy recovery activities. This memorandum summarizes the results of
            our review.

Background
            Hurricane Sandy made landfall on
            October 29, 2012, and struck the East
            Coast from North Carolina to Maine.           Clean Water State Revolving Fund
            High winds and storm surge caused             The Clean Water State Revolving Fund
            widespread flooding; loss of life; 	          program was established in 1987 under the
            displacement of persons; and 	                Clean Water Act. CWSRF programs provided
                                                          more than $5 billion annually in recent years to
            significant damage to private property,       fund water quality protection projects for
            public infrastructure and government 	        wastewater treatment, nonpoint source
            facilities. A dangerous nor'easter 	          pollution control, and watershed and estuary
                                                          management. CWSRFs have funded over $89
            followed 9 days later causing                 billion, providing over 30,012 low-interest
            additional damage and undermining             loans to date.
            the recovery effort. New York and
            New Jersey were especially hard hit by        Drinking Water State Revolving Fund
            these storms. Recovery efforts 	              The Safe Drinking Water Act, as amended in
            continue today throughout the region. 	       1996, established the Drinking Water SRF to
                                                          make funds available to drinking water systems
                                                          to finance infrastructure improvements. The
            The DRAA requires federal agencies 	          program also emphasizes providing funds to
            supporting Sandy recovery and other 	         small and disadvantaged communities and to
            disaster-related activities to implement      programs that encourage pollution prevention
                                                          as a tool for ensuring safe drinking water.
            additional internal controls to prevent
            waste, fraud and abuse of recovery
            funds. Most of the EPA’s DRAA
            appropriation provided for the Clean Water and Drinking Water State Revolving
            Funds ($600 million). Additional DRAA provisions for the EPA included:

               	 Each state shall use not less than 20 percent but not more than 30 percent
                  of the amount of its capitalization grant for principal forgiveness, negative
                  interest loans or grants, or any combination of these.
               	 Funds shall only be used for projects whose purpose is to reduce flood
                  damage risk and vulnerability or to enhance resiliency to rapid hydrologic


13-P-0351                                                                                                1
                  change or a natural disaster at treatment works defined by the Federal
                  Water Pollution Control Act or any eligible facilities under the Safe
                  Drinking Water Act, and for other eligible tasks at such treatment works
                  or facilities to further such purposes.
               	 The Administrator may retain up to $1,000,000 of such funds for 

                  management and oversight. 

               	 Funds must be expended by grantees within 2 years following the
                  agency’s obligation of funds for the grant. The agency must include a term
                  in the grant that requires the grantee to return to the agency any funds not
                  expended within the 24-month period.

            The Office of Management and Budget issued a memorandum to federal agencies
            supporting Sandy recovery that established the criteria for control plans required by
            the DRAA to be submitted by March 31, 2013 to OMB, GAO, and the agency’s
            Inspector General. OMB Memorandum M-13-07 required that, at a minimum,
            agency internal control plans for Sandy recovery-related program funding reflect
            consideration of the following elements:

               	 Conducting Additional Levels of Review. Agencies shall adopt more
                  expansive review procedures, as appropriate, to scrutinize award
                  decisions, payment transactions, and other critical process elements that
                  impact the use of the Disaster Relief Appropriation Act’s funds. To ensure
                  a higher degree of accountability, each agency shall include senior level
                  officials in these reviews, as appropriate (e.g., areas of high risk).
               	 Increasing Monitoring and Oversight of Grant Recipients. To the
                  extent appropriate to mitigate risk and possible budgetary constraints,
                  agencies shall increase the frequency and specificity of grantee reporting,
                  conduct additional site visits, and provide additional technical assistance
                  and training to recipients of federal funding.
               	 Expediting Review and Resolution of Audit Findings. Agencies shall
                  resolve all audit findings within 6 months after completion of the audit to
                  the extent practicable. Agencies should avoid granting extension requests
                  for audit report submissions and should explore the feasibility of
                  conducting additional audit activities to review internal control procedures
                  prior to funding the activity.
               	 Adopting Improper Payments Management Protocol. Agencies shall
                  manage all Sandy-related funding with the same discipline and rigor as
                  programs that are traditionally designated as high-risk for improper payments.
               	 Continuing Collaboration with the Inspector General Community. To
                  identify and mitigate potential risk, agencies shall continue early and frequent
                  engagement with Inspectors General to discuss issues affecting the DRAA's
                  disaster-related programs and activities.

            The EPA issued its internal control plan to OMB on March 28, 2013, and we
            summarized our observations on the agency’s plan below.



13-P-0351                                                                                     2
Noteworthy Achievements
            The EPA showed foresight to seek a waiver from OMB on the requirement to
            expend DRAA funds within 24 months. EPA staff noted that the 2-year
            requirement does not exist in the SRF base program and that it is difficult to
            construct a typical SRF construction project in 2 years. The EPA also has plans in
            place to undertake many actions to address our suggestions.

Scope and Methodology
                                                        American Recovery and Reinvestment
            We performed our review from April          Act
            2013 to July 2013 in accordance with
            generally accepted government               The purpose of the American Recovery and
            auditing standards. Those standards         Reinvestment Act was to quickly save and
                                                        create jobs. Other objectives were to provide
            require that we plan and perform our        temporary relief programs for those most
            review to obtain sufficient,                impacted by the recession and invest in
            appropriate evidence to provide a           infrastructure, education, health, and “green”
                                                        energy. The approximate cost of the economic
            reasonable basis for our observations       stimulus package was estimated to be $787
            based on our objectives. We believe         billion at the time of passage (later revised to
            the evidence obtained provides a            $831 billion). The Act included direct spending
                                                        in infrastructure, education, health, and energy;
            reasonable basis for our observations       federal tax incentives; and expansion of
            presented in this report. 	                 unemployment benefits and other social
                                                        welfare provisions. For EPA, ARRA provided
                                                        significant funding for states to finance high-
            We sought to determine whether the          priority water infrastructure projects through a
            EPA has controls in place for the           $4 billion appropriation to the CWSRF
            award and management of Sandy               program and a $2 billion appropriation to the
                                                        DWSRF program.
            relief funds based on lessons from
            past ARRA reports. While the EPA
            noted important distinctions between
            ARRA funding and Sandy relief funds, the agency agrees that ARRA provides a
            fruitful reference point for Sandy planning. To address our objective, we received
            briefings from agency program and regional offices on Sandy recovery activities,
            including oversight of the states of New York and New Jersey. The EPA’s Office
            of Regional Operations and Office of the Chief Financial Officer described key
            lessons from ARRA as well as emergency responses to Hurricane Katrina and the
            Deepwater Horizon Oil Spill that the agency considered in formulating its Sandy
            internal control plan (submitted to OMB on March 28, 2013).

            We reviewed prior EPA OIG and GAO ARRA reports, and prior EPA OIG
            non-ARRA reports on items referenced in the EPA’s internal control plan
            (e.g., SRF, improper payments, etc.), to identify applicable lessons for Sandy
            relief funds. We reviewed 72 prior reports on ARRA, including 68 EPA OIG and
            four GAO reports. We also reviewed the EPA’s Management Audit Tracking
            System for unimplemented recommendations on a judgmental sample of water-
            related reports given the majority of DRAA appropriations to the CWSRF and
            DWSRF. We identified 44 lessons learned from our review of prior reports and


13-P-0351                                                                                                   3
                further narrowed list to five key lessons that repeated in three or more reports.
                We conducted a comparative analysis of our identified lessons learned against the
                EPA’s provisions in the DRAA and the agency’s internal control plan to
                determine the adequacy of planned internal controls. We vetted our five
                suggestions with the EPA and incorporated herein the agency’s comments and its
                descriptions of activities related to our five suggestions.

Results of Review
                EPA has controls in place to manage Sandy relief funds as described in the
                agency’s internal control plan, such as conducting transaction testing on cash
                draws; performing semiannual administrative review of audits; and accelerating
                resolution of open audits. We identified additional controls for the agency to
                consider based on our prior report review. Our review of 72 prior ARRA reports
                identified the following number of those reports with elements relating to key
                OMB provisions specifically, addressing multiple provisions, or addressing no
                provisions:


                                                                 11.11%
                                                                                           31.94%
                                               20.83%



                                               4.17%
                                                 2.78%
                                                                               29.17%




  Source: OIG analysis.


                We identified five internal controls for the EPA to consider based on issues that
                arose in three or more of the 72 ARRA reports we reviewed:

                    1.	 The EPA should strengthen oversight of sub-recipients and develop a
                        checklist that states can use to help ensure compliance with DRAA.
                    2.	 The EPA should work with states to incorporate inspections as part of
                        routine oversight.
                    3.	 The EPA should utilize information in recipient monitoring databases to
                        regularly provide reports to management on progress of projects and status
                        of corrective action plans.


13-P-0351                                                                                           4
                    4.	 The EPA’s plan should include specific actions to identify states/projects
                        at risk of not meeting deadlines and establish procedures to assist states
                        with projects not under contract/delayed.
                    5.	 The EPA should update its detection and reporting procedures to identify
                        improper grant payments.

                We found that the EPA’s Sandy internal control plan addressed OMB guidance
                requirements. We overlaid OMB’s key elements and our observations on five
                control suggestions on the EPA’s internal control plan. Appendix A shows the
                agency’s full plan with our analysis in green.

                The EPA agreed with our five control suggestions and described activities already
                undertaken related to each as follows:

 1. The EPA should strengthen oversight of sub-recipients and develop a checklist that states
 can use to help ensure compliance with DRAA.
 The EPA agrees on the importance of sub-recipient oversight. The SRF program provided New York
 and New Jersey with copies of review checklists to help ensure sub-recipient compliance with SRF
 requirements. In addition, the EPA has developed DRAA-specific guidance with the states to facilitate
 DRAA compliance.
 2. The EPA should work with states to incorporate inspections as part of routine oversight.
 The EPA agrees that inspections can enhance oversight. While the EPA does not have the statutory
 authority to require states to inspect projects, historically both New York and New Jersey have chosen
 to do so. Consistent with the OIG’s suggestion, they have indicated that they will follow this practice for
 DRAA-funded projects (typically, inspections occur once each at the project’s beginning and end, with
 larger projects receiving more frequent inspections).
 3. The EPA should utilize information in recipient monitoring databases to regularly provide
 reports to management on progress of projects and status of corrective action plans.
 The EPA agrees on the need to effectively use monitoring information to assess progress and
 corrective action. This is a key component of our Internal Control Plan. The “Performance and Results”
 section of the plan designates the review of existing databases such as Clean Water Benefits
 Reporting System, Drinking Water Benefits Reporting System and Compass Data Warehouse. EPA
 Order 5600.6A2 requires the use of the Post Award Database and Grantee and Compliance Database
 to monitor and track corrective actions. The SRF program guidance also requires monthly reporting
 from the states on outlays and disbursements by project. Program officials utilize these sources to
 provide monthly updates to management.
 4. The EPA’s plan should include specific actions to identify states/projects at risk of not
 meeting deadlines and establish procedures to assist states with projects not under
 contract/delayed.
 Both New York state and New Jersey, the two states that will be receiving SRF capitalization grants
 under DRAA, have a long track record of successfully managing billions of dollars worth of water
 infrastructure projects. To ensure projects are completed, the EPA requested a waiver from the 2 year
 expenditure requirement from OMB. In addition, in response to requests from both states, the EPA will
 provide support in tracking individual project status (Clean Water Benefits Reporting System and
 Drinking Water Benefits Reporting System and Compass Data Warehouse) to ensure that the funds
 are spent expeditiously. Further, the SRF program guidance requires monthly reporting from the states
 on outlays and disbursements by project. The EPA believes these measures address the underlying
 intent of the OIG’s suggestion.




13-P-0351                                                                                                      5
 5. EPA should update its detection and reporting procedures to identify improper grant
 payments.
 The EPA agrees that it is imperative to address the risk of improper payments and our Internal Control
 Plan reflects this priority. OMB M-13-07 provides that “agencies shall manage all Sandy related funding
 with the same discipline and rigor as programs that are traditionally designated as high-risk for
 improper payments.” To ensure compliance with the OMB directive, the SRF program will continue to
 use its existing high-risk compliant protocol. The EPA will also continue to implement an OMB-
 compliant sampling methodology to identify improper payments through cash transaction testing.
Source: OIG analysis based upon the EPA’s June 14, 2013 response to our discussion draft report.


Conclusion
                 This report makes no recommendations to the EPA. Rather, we suggest that the
                 EPA consider the control suggestions we identified from past ARRA reports as
                 the agency moves forward with its Sandy recovery activities.

Agency Comments and OIG Evaluation
                 The EPA agreed with our report suggestions and appreciated our efforts to
                 acknowledge the agency’s proactive steps to address our suggestions. Appendix B
                 includes the agency’s full response to our draft report.




13-P-0351                                                                                                  6
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0351                                                                                                                              7
                                                                                                   Appendix A

    OIG Analysis of the EPA’s Hurricane Sandy Internal Control Plan

Agency: U.S. EPA                              Hurricane Sandy Internal Control Plan

Explanation - The table below describes the incremental risks identified with each program
administering Hurricane Sandy recovery funding as well as the internal control strategy (specific
policies and procedures enhancements) for mitigating each of these risks. The risk assessment
reflects the agency strategy on reducing improper payments, promoting effective grants
management, and ensuring the integrity of acquisitions. Further, the plan addresses efforts to
conduct additional levels of review, increase monitoring and oversight of grant recipients,
enhance collaboration with the inspector general community, expedite review and resolution of
audit findings, and adopt improper payments management protocol.

Program Name: Clean Water State Revolving Fund (CWSRF) – $500 million1
Funded Activities: Waste Water Infrastructure Financing. Grants fund state- managed SRF funds
which provide loans (and some subsides) for waste water projects to protect public health and
ensure compliance with the Clean Water Act (CWA). However, unlike other SRF appropriations,
the supplemental funds are provided for the purpose: “to reduce flood damage risk and
vulnerability or to enhance resiliency to rapid hydrologic change or a natural disaster at treatment
works … and for other eligible tasks at such treatment works or facilities necessary to further
such purposes”.2

Risks Associated    Mitigation Strategy              OIG Observations                      OMB Guidance Memo
with F unded                                         (Lessons Learned No. from             13-071
                                                     Prior Report Review)
Activities
Verify spending -   Perform State Annual Review      1. EPA should strengthen              Conducting Additional
Ensure              & conduct transaction testing    oversight of sub-recipients and       Levels of Review
                    on selected cash draws. Semi-    develop a checklist that states can
expenditures
                                                     use to help ensure compliance         Increasing Monitoring
match progress to   Annual Administrative review     with DRAA.                            and Oversight of Grant
date and are for    of audits and open reviews. In                                         Recipients
appropriate         addition, resolution of open     2. EPA should work with states to
purpose (Improper   audits will be accelerated.      incorporate inspections as part of    Expediting Review and
                    Policies and Procedures:         routine oversight.                    Resolution of Audit
Payments3) and
                    EPA Order 5700.6A2 Policy                                              Findings
appropriate                                          3. EPA should utilize information
measures taken to   on Compliance, Review and
                                                     in recipient monitoring databases     Adopting Improper
prevent waste,      Monitoring, EPA Manual           to regularly provide reports to       Payments Management
                    2750 Audit Management            management on progress of             Protocol
fraud and abuse.
                    Procedures.                      projects and status of corrective
                                                     action plans.

1
  SRF Notes a) Mechanism for CW & DW SRFs are similar but they implement different statutes and have 

some differences in eligibility, etc. b) EPA may also retain $1 million of the total $600 million for 

management and oversight c) States may choose to switch some funds from one SRF to the other. 

2
  Copy of EPA and management portions of the DRAA legislation attached for reference. 

3
  The agency plans to group all “Sandy” funds into a consolidated payment stream, which will be sampled for 

improper payments during the FY 2014 improper payments reporting cycle.



13-P-0351                                                                                                           8
Risks Associated      Mitigation Strategy             OIG Observations                      OMB Guidance Memo
with F unded                                          (Lessons Learned No. from             13-071
                                                      Prior Report Review)
Activities
Performance &         Review State Annual Report      1. EPA should strengthen              Increasing Monitoring
Results – Ensure      and conduct State Annual        oversight of sub-recipients and       and Oversight of Grant
                                                      develop a checklist that states can   Recipients
progress with         Review & review CBR (Clean
                                                      use to help ensure compliance
workplan and          Water Benefits Reporting        with DRAA.
environmental         System)/PBR (Drinking
results / outcomes.   Water Benefits Reporting        2. EPA should work with states to
                      System) data. Policies and      incorporate inspections as part of
                      Procedures: 5700.6A2 Policy     routine oversight.
                      on Compliance, Review and
                                                      3. EPA should utilize information
                      Monitoring; EPA Order           in recipient monitoring databases
                      5700.7 Environmental Results    to regularly provide reports to
                      under EPA Assistance            management on progress of
                      Agreements.                     projects and status of corrective
                                                      action plans.

                                                      4. EPA’s plan should include
                                                      specific actions to identify
                                                      states/projects at risk of not
                                                      meeting deadlines and establish
                                                      procedures to assist states with
                                                      projects not under
                                                      contract/delayed.
Civil Rights -        Provide certification of        N/A                                   Conducting Additional
Compliance with       compliance with Title VI                                              Levels of Review
Title VI.             (Form 4700-4). Policies and
                      Procedures: National
                      administrative term and
                      condition, "Civil Rights
                      Obligations," included on all
                      awards.
OIG - Ensure          EPA has identified a point of   N/A                                   Continuing
collaboration with    contact in OIG for all                                                Collaboration with the
                      Hurricane Sandy related                                               Inspector General
the Office of the
                      issues.                                                               Community
Inspector General
Grant Conditions      Semi-annual                     1. EPA should strengthen              Conducting Additional
– Compliance          administrative review of        oversight of sub-recipients and       Levels of Review
                                                      develop a checklist that states can
with all terms and    compliance with grant
                                                      use to help ensure compliance
conditions            terms and conditions.           with DRAA.
associated with       Policies and Procedures:
grant.                EPA Order 5700.6A2              2. EPA should work with states to
                      Policy on Compliance,           incorporate inspections as part of
                      Review and Monitoring.          routine oversight.

                                                      3. EPA should utilize information
                                                      in recipient monitoring databases
                                                      to regularly provide reports to
                                                      management on progress of


13-P-0351                                                                                                            9
Risks Associated    Mitigation Strategy              OIG Observations                    OMB Guidance Memo
with F unded                                         (Lessons Learned No. from           13-071
                                                     Prior Report Review)
Activities
                                                     projects and status of corrective
                                                     action plans.

                                                     4. EPA’s plan should include
                                                     specific actions to identify
                                                     states/projects at risk of not
                                                     meeting deadlines and establish
                                                     procedures to assist states with
                                                     projects not under
                                                     contract/delayed.
Appropriate Use -   Completion of annual ULO         4. EPA’s plan should include        Conducting Additional
Ensure all          review and certification.        specific actions to identify        Levels of Review
funds associated    Policies and P rocedures:        states/projects at risk of not
with the award      Resource Management              meeting deadlines and establish
are needed for      Directive System No. 2520-       procedures to assist states with
applicable          03-P1 (Administrative            projects not under
projects.           Controls of Appropriated         contract/delayed.
                    Funds); EPA Grants Policy
                    Issuance (GPI)11-01
                    Managing Unliquidated
                    Obligations and Ensuring
                    Progress under EPA
                    Assistance Agreements (as
                    amended by GPI 12-06
                    Timely Obligation, Award
                    and Expenditure of EPA
                    Grant Funds).
Tracking – EPA      Creation of CFDA 66.482 -        4. EPA’s plan should include        Increasing Monitoring
will track the      Disaster Relief Appropriations   specific actions to identify        and Oversight of Grant
                                                     states/projects at risk of not      Recipients
outlays and         Act (DRAA) Hurricane Sandy
                                                     meeting deadlines and establish
expenditures.       Capitalization Grants For        procedures to assist states with
                    Clean Water State Revolving      projects not under
                    Funds and new appropriations     contract/delayed.
                    /funds code (E2S2 – CWSRF
                    Sandy Supplemental).*            5. EPA should update its
                                                     detection and reporting
                                                     procedures to identify improper
                                                     grant payments.




13-P-0351                                                                                                     10
Risks Associated     Mitigation Strategy              OIG Observations                      OMB Guidance Memo
with F unded                                          (Lessons Learned No. from             13-071
                                                      Prior Report Review)
Activities
Timely               The estimated                    3. EPA should utilize information     Increasing Monitoring
Expenditure –        outlay/expenditure rates are     in recipient monitoring databases     and Oversight of Grant
                                                      to regularly provide reports to       Recipients
Additional           based on the states’ needs and
                                                      management on progress of
procedures to        plans. (EPA will not be          projects and status of corrective
ensure funds are     delaying the work) New           action plans.
used in a timely     Jersey and New York have
manner in the case   indicated it could take many     4. EPA’s plan should include
where a waiver is    years to expend all the funds,   specific actions to identify
granted for the      given the time it takes to       states/projects at risk of not
                                                      meeting deadlines and establish
two year             implement construction           procedures to assist states with
expenditure          projects. The estimated          projects not under
requirement          outlays/expenditures are as      contract/delayed.
(Section 904(c)).    follows: Year 1: 0%; Year 2:
                     2%; Year 3: 24%; Year 4:
                     21%; Year 5: 19%; Year 6:
                     11%; Year 7: 8%; Year 8: 7%;
                     and Year 9: 8%. Policies and
                     Procedures: SRF Guidance
                     on Managing Hurricane
                     Sandy Funds and Activities.*
Selection Process    Grants will be provided to       1. EPA should strengthen              Conducting Additional
– Ensure that        New York and New Jersey          oversight of sub-recipients and       Levels of Review
                                                      develop a checklist that states can
proper procedures    per the Clean Water Act.
                                                      use to help ensure compliance
and scrutiny is      Projects are chosen by the       with DRAA.
provided during      states in accordance with
the recipient        eligible project requirements
selection process.   and State priority ranking
                     systems as required in CWA
                     and DRAA. Contracts for the
                     specified projects are
                     competed via bid processes as
                     required by the states and
                     municipalities. Policies and
                     Procedures: SRF Guidance
                     on Managing Hurricane
                     Sandy Funds and Activities
                     and the Clean Water Act.*




13-P-0351                                                                                                        11
Program Name: Drinking Water State Revolving Fund (DWSRF) $100 million4
Funded Activities: Drinking Water Infrastructure Financing. Grants fund state- managed SRF
funds which provide loans (and some subsidies) for drinking water projects to protect public
health and ensure compliance with the Safe Drinking Water Act (SDWA). However, unlike other
SRF appropriations, the supplemental funds are provided for the purpose: “to reduce flood
damage risk and vulnerability or to enhance resiliency to rapid hydrologic change or a natural
disaster at treatment works … and for other eligible tasks at such treatment works or facilities
necessary to further such purposes”.5

Risks Associated     Mitigation Strategy              OIG Observations                      OMB Guidance Memo
with F unded                                          (Lessons Learned No. from             13-071
                                                      Prior Report Review)
Activities
Verify spending -    Perform State Annual Review      1. EPA should strengthen              Conducting Additional
Ensure               & conduct transaction testing    oversight of sub-recipients and       Levels of Review
                                                      develop a checklist that states can
expenditures         on selected cash draws. Semi-
                                                      use to help ensure compliance         Increasing Monitoring
match progress to    Annual Administrative review     with DRAA.                            and Oversight of Grant
date and are for     of audits and open reviews. In                                         Recipients
appropriate          addition, resolution of open     2. EPA should work with states to
purpose (Improper    audits will be accelerated.      incorporate inspections as part of    Expediting Review and
Payments) and        Policies and Procedures:         routine oversight.                    Resolution of Audit
appropriate          EPA Order 5700.6A2 Policy                                              Findings
                                                      3. EPA should utilize information
measures taken to    on Compliance, Review and        in recipient monitoring databases     Adopting Improper
prevent waste,       Monitoring, EPA Manual           to regularly provide reports to       Payments Management
fraud and abuse.     2750 Audit Management            management on progress of             Protocol
                     Procedures.                      projects and status of corrective
                                                      action plans.
Performance &        Review State Annual Report       1. EPA should strengthen              Increasing Monitoring
Results – Ensure     and conduct State Annual         oversight of sub-recipients and       and Oversight of Grant
                     Review & review CBR              develop a checklist that states can   Recipients
progress with
                     (Clean Water Benefits            use to help ensure compliance
workplan and         Reporting System)/PBR            with DRAA.
environmental        (Drinking Water Benefits
results/outcomes.    Reporting System) data.          2. EPA should work with states to
                     Policies and Procedures:         incorporate inspections as part of
                     5700.6A2 Policy on               routine oversight.
                     Compliance, Review and
                     Monitoring; EPA Order            3. EPA should utilize information
                     5700.7 Environmental Results     in recipient monitoring databases
                     under EPA Assistance             to regularly provide reports to
                     Agreements.                      management on progress of
                                                      projects and status of corrective
                                                      action plans.

                                                      4. EPA’s plan should include
                                                      specific actions to identify
                                                      states/projects at risk of not


4
  SRF Notes a) Mechanism for CW & DW SRFs are similar but they implement different statutes and have some

differences in eligibility, etc. b) EPA may also retain $1 million of the total $600 million for management and

oversight c) States may choose to switch some funds from one SRF to the other. 

5
  Language taken from DRAA statute. 



13-P-0351                                                                                                          12
Risks Associated     Mitigation Strategy             OIG Observations                      OMB Guidance Memo
with F unded                                         (Lessons Learned No. from             13-071
                                                     Prior Report Review)
Activities
                                                     meeting deadlines and establish
                                                     procedures to assist states with
                                                     projects not under
                                                     contract/delayed.
Civil Rights -       Provide certification of        N/A                                   Conducting Additional
Compliance with      compliance with Title VI                                              Levels of Review
Title VI.            (Form 4700-4). Policies and
                     Procedures: National
                     administrative term and
                     condition, "Civil Rights
                     Obligations," included on all
                     awards.
OIG - Ensure         EPA has identified a point of   N/A                                   Continuing
collaboration with   contact in OIG for all                                                Collaboration with the
                     Hurricane Sandy related                                               Inspector General
the Office of the
                     issues.                                                               Community
Inspector General.
Grant Conditions     Semi-annual                     1. EPA should strengthen              Conducting Additional
– Compliance         administrative review of        oversight of sub-recipients and       Levels of Review
                                                     develop a checklist that states can
with all terms and   compliance with grant
                                                     use to help ensure compliance
conditions           terms and conditions.           with DRAA.
associated with      Policies and Procedures:
grant.               EPA Order 5700.6A2              2. EPA should work with states to
                     Policy on Compliance,           incorporate inspections as part of
                     Review and Monitoring.          routine oversight.

                                                     3. EPA should utilize information
                                                     in recipient monitoring databases
                                                     to regularly provide reports to
                                                     management on progress of
                                                     projects and status of corrective
                                                     action plans.

                                                     4. EPA’s plan should include
                                                     specific actions to identify
                                                     states/projects at risk of not
                                                     meeting deadlines and establish
                                                     procedures to assist states with
                                                     projects not under
                                                     contract/delayed.
Appropriate Use -    Completion of annual ULO        4. EPA’s plan should include          Conducting Additional
Ensure all           review and certification.       specific actions to identify          Levels of Review
funds associated     Policies and P rocedures:       states/projects at risk of not
with the award       Resource Management             meeting deadlines and establish
are needed for       Directive System No. 2520-      procedures to assist states with
applicable           03-P1 (Administrative           projects not under
projects             Controls of Appropriated        contract/delayed.
                     Funds); EPA Grants Policy
                     Issuance (GPI)11-01
                     Managing Unliquidated



13-P-0351                                                                                                           13
Risks Associated     Mitigation Strategy              OIG Observations                      OMB Guidance Memo
with F unded                                          (Lessons Learned No. from             13-071
                                                      Prior Report Review)
Activities
                     Obligations and Ensuring
                     Progress under EPA
                     Assistance Agreements (as
                     amended by GPI 12-06
                     Timely Obligation, Award
                     and Expenditure of EPA
                     Grant Funds).
Tracking – EPA       Creation of CFDA 66.483 -        4. EPA’s plan should include          Increasing Monitoring
will track the       Disaster Relief                  specific actions to identify          and Oversight of Grant
                                                      states/projects at risk of not        Recipients
outlays and          Appropriations Act (DRAA)
                                                      meeting deadlines and establish
expenditures.        Hurricane Sandy                  procedures to assist states with
                     Capitalization Grants For        projects not under
                     Drinking Water State             contract/delayed.
                     Revolving Funds and new
                     appropriations/funds code        5. EPA should update its
                                                      detection and reporting
                     (E3S2 – CWSRF Sandy
                                                      procedures to identify improper
                     Supplemental.)*                  grant payments.
Timely               The estimated                    3. EPA should utilize information     Increasing Monitoring
Expenditure –        outlay/expenditure rates are     in recipient monitoring databases     and Oversight of Grant
                                                      to regularly provide reports to       Recipients
Additional           based on the states’ needs and
                                                      management on progress of
procedures to        plans. (EPA will not be          projects and status of corrective
ensure funds are     delaying the work) New           action plans.
used in a timely     Jersey and New York have
manner in the case   indicated it could take many
where a waiver is    years to expend all the funds,
granted for the      given the time it takes to
two year             implement construction
expenditure          projects. The estimated
requirement          outlays/expenditures are as
(Section 904(c)).    follows: Year 1: 0%; Year 2:
                     2%; Year 3: 24%; Year 4:
                     21%; Year 5: 19%; Year 6:
                     11%; Year 7: 8%; Year 8:
                     7%; and Year 9: 8%. Policies
                     and Procedures: SRF
                     Guidance on Managing
                     Hurricane Sandy Funds and
                     Activities.*
Selection Process    Grants will be provided to       1. EPA should strengthen              Conducting Additional
– Ensure that        New York and New Jersey          oversight of sub-recipients and       Levels of Review
                                                      develop a checklist that states can
proper procedures    per the Safe Drinking Water
                                                      use to help ensure compliance
and scrutiny is      Act. Projects are chosen by      with DRAA.
provided during      the states in accordance with
the recipient        eligible project requirements
selection process.   and State priority ranking



13-P-0351                                                                                                        14
Risks Associated   Mitigation Strategy             OIG Observations            OMB Guidance Memo
with F unded                                       (Lessons Learned No. from   13-071
                                                   Prior Report Review)
Activities
                   systems as required in SDWA
                   and DRAA. Contracts for the
                   specified projects are
                   competed via bid processes as
                   required by the states and
                   municipalities. Policies and
                   Procedures: SRF Guidance
                   on Managing Hurricane
                   Sandy Funds and Activities
                   and the Safe Drinking Water
                   Act.*




13-P-0351                                                                                      15
                                                                 Appendix B

                   Agency’s Response to Draft Report




cc: Craig Hooks          Barbara Freggens   Matt King
    Nanci Gelb           Adam Fett          Bonnie Gitlin
    Howard Corcoran      Sandy Dickens      Marilyn Ramos
    Maryann Froehlich    Nancy Stoner       Richard Eyermann
    David Bloom          Mike Shapiro       Kevin Christensen
    John O’Connor        Hamilton Humes     Patrick Gilbride
    Istanbul Yusuf       Andrew Sawyers     Erin Barnes-Weaver




   13-P-0351                                                             16
                                                                              Appendix C

                                  Distribution
Office of the Administrator
Director, Office of Financial Management, Office of the Chief Financial Officer
Assistant Administrator for Water
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Principal Deputy Assistant Administrator, Office of Water
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Wastewater Management, Office of Water
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Deputy Director, Office of Financial Management, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0351                                                                                17
